                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                         Compliance Follow-up Review of
                                         Embassy Copenhagen, Denmark

                                             Report Number ISP-C-12-20, March 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOW-UP REVIEW

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Compliance Follow-up Reviews (CFR) cover three broad areas, consistent with
Section 209 of the Foreign Service Act of 1980:

        Policy Implementation: whether policy goals and objectives are being effectively
         achieved; whether U.S. interests are being accurately and effectively represented; and
         whether all elements of an office or mission are being adequately coordinated.

        Resource Management: whether resources are being used and managed with
         maximum efficiency, effectiveness, and economy and whether financial transactions
         and accounts are properly conducted, maintained, and reported.

        Management Controls: whether the administration of activities and operations meets
         the requirements of applicable laws and regulations; whether internal management
         controls have been instituted to ensure quality of performance and reduce the
         likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
         whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

       In conducting this compliance follow-up review, the inspectors have: 1) reviewed the
previous inspection report and the reported corrective actions; 2) distributed survey instruments to
inspected entity(s) and compiled and analyzed the results to measure and report changes in the
period between the previous inspection and this CFR; 3) conducted on-site interviews and
reviewed and collected documentation to substantiate reported corrective actions; 4) addressed
new, significant deficiencies or vulnerabilities identified in the CFR survey results and during the
course of the on-site CFR and, where appropriate, issued new recommendations; and, 5) discussed
the substance of the draft CFR report substance of the draft CFR report at the final meeting with
the head of the inspected bureau/office or post.



                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                                      1
Background                                                         2
Executive Direction                                                3
Policy and Program Implementation                                  5
  The Political/Economic Section                                   5
  International Conference on Role of Women in Conflict            5
  Greenland                                                        5
Public Diplomacy                                                   7
  Information Outreach                                             7
  Education and Exchanges                                          7
Consular Operations                                                9
Embassy Restaurant                                                11
  After-hours Events                                              11
  Funding                                                         13
  Other Licensing Agreement Issues                                14
  Security                                                        15
Resources Management                                              16
  Facilities                                                      16
  General Services Operations                                     18
  Housing                                                         19
  Supplemental Medical Plan for Locally Employed Staff            19
Security                                                          20
Evaluation of Compliance                                          22
List of CFR Recommendations                                       23
List of Informal Recommendations                                  25
Principal Officials                                               26
Abbreviations                                                     27
APPENDIX I: Status of 2010 Inspection Formal Recommendations      28
APPENDIX II: Status of 2010 Inspection Informal Recommendations   42




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   Embassy Copenhagen complied with most of the formal and informal recommendations in
    the 2011 inspection report. The compliance follow-up review (CFR) has revised and reissued
    recommendations that were not resolved.
•   The Ambassador promotes and advances U.S. interests well in Denmark. Her staff
    recognizes her energy, creativity, and access to Danish Government and society. She has led
    mission engagement with the new government, which formed after national elections in
    September 2011.
•   Gaps remain in the area of strategic planning in the mission, especially the need to develop a
    long-term public affairs strategy that will maximize the Ambassador’s media presence and
    the need to create a mission strategic approach to engagement with Greenland that balances
    the embassy’s goals with the realities of great distance and high costs.
•   The 2011 inspection report included recommendations intended to strengthen mission
    management and leadership by instituting a typical embassy chain of command. The
    Ambassador preferred then, and continues to prefer, a flat approach in which she and the
    deputy chief of mission (DCM) task and communicate with any embassy staff member
    directly. While they have the prerogative to do so, the effects include section chiefs who are
    not always aware of what their subordinates have been asked to do, thereby creating
    accountability issues.
•   Communications across the mission have improved since the inspection, but long-standing
    issues of trust have weakened transparency and impeded information sharing. The embassy is
    host to the Diplomat Restaurant, which combines elements of a traditional embassy cafeteria
    with a unique after-hours program open to select Danish organizations. This arrangement
    needs to be evaluated and reviewed from a security, legal, and management perspective.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) did not identify problems that need to be
corrected.

The CFR took place in Washington, DC, between October 31 and November 4, 2011, and in
Copenhagen, Denmark, between November 7 and 17, 2011. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Background
         OIG inspected Embassy Copenhagen in October 2010. 1 Although the mission seemed to
be functioning adequately, the inspection team found (b) (5)             problems with senior
mission leadership. In response to several key judgments on leadership, the team recommended
that the Ambassador return to Washington for consultations that had not been possible before her
arrival in Copenhagen and issued three other recommendations that sought to clarify the chain of
command. In a meeting with the deputy inspector general in December 2010, the Ambassador
asked for a CFR. She felt that the inspection was unduly critical because it did not take into
account the fact that it was conducted just as a new team, which she had selected, arrived.

       Heavy flooding during summer 2011 damaged the lower floors of the chancery building.
Approximately one-third of the building required complete renovation, and mission staff has
been required to double up and work in cramped spaces. Many mission employees, primarily in
the management section, devoted considerable time to the clean-up efforts.




1
    ISP-I-11-19A, March 2011
                                            2
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        At Embassy Copenhagen, experienced American and locally employed (LE) staff give
the Ambassador high marks for the promotion and advancement of U.S. interests in Denmark.
They recognize her energy and creativity. They are aware of the extent of her access to
government leaders, government officials, members of the opposition, business leaders, and the
Danish public. Based on what they hear from their Danish contacts, they know she makes a
positive impact in Denmark. The Bureau of European and Eurasian Affairs (EUR) told
inspectors that the bureau has a similarly positive, if less detailed, impression of the
Ambassador’s effectiveness as a representative of the U.S. President.

         The inspection report for Embassy Copenhagen, issued early in 2011, noted problems of
clarity in delineating the responsibilities and authorities of the DCM; problems with senior
mission officers understanding the chain of command, including section chiefs’ responsibilities
for the work of their subordinates; and problems of communication and transparency across the
mission. Inspectors issued three recommendations intended to address these problems. Mission
officers told the CFR team that they have seen some improvement and many believed their
relationships with the Ambassador have also improved.

        As was the case at the time of the inspection, the Ambassador prefers to run a relatively
flat organization; the Ambassador reaches out to individual officers for information or to assign
them tasks. Often, section chiefs are unaware of assigned tasks until advised by their
subordinates. While it is the prerogative of the Ambassador and DCM to operate a relatively flat
organization, including reaching out directly to any member of the mission, the absence of a
clear system to keep supervisors informed about those contacts hinders section chiefs’ ability to
maintain oversight and quality control over their officers’ work. This practice also results in a
loss of accountability, and in the case of some entry-level officers, their involvement with special
projects may have limited their exposure to the core programs that they need to master.

         Reissuing the inspection recommendation to distribute an administrative notice that
delineates a clear chain of command will not, in itself, address the issues identified by the
inspection. The Ambassador believes the current approach works best for her. The system has
not resulted in obvious lost opportunities or unforced errors. Nevertheless, this approach has the
effect of denying the Ambassador the shaping and enrichment of her thinking by professionals
with experience in Department processes, as well as some who have experience and
understanding of Denmark. Additionally, some officers do not feel that they have been able to do
the jobs they expected to do. Compared to the original inspection, survey results from mission
staff in personal questionnaires completed prior to the CFR have not significantly improved, and
overall mission morale, as measured by the OIG survey, is about the same.

     As a generally accepted management principle, managers should foster open
communication. Mission leadership has taken some positive and well-received steps to expand
communication. (b)(5)(b)(6)




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b)(5)(b)(6)




       The Ambassador has a team of professionals that admire her accomplishments in
representing the United States to the government and people of Denmark. They are anxious to
support her efforts and make her successful. (b)(5)(b)(6)




        Many decisions made by the front office are made either in personal conversation or via
email. While the immediacy and openness of this management style is commendable, among the
consequences of such informality is that not all stakeholders in a decision are aware of what is
happening, instructions are not always clear, deadlines are not always met, and opportunities for
cooperation among sections are lost. The CFR team recognizes that the level of staff work
required by the Department in its Washington headquarters is not appropriate for a medium-sized
embassy. However, greater structure, including the use of action and information memoranda,
could ensure wider distribution of needed information, provide the benefit of wider input and
discussion, and reduce misunderstandings that may occur from unclear taskings. The CFR team
notes that a special assistant position already exists in the front office and believes that this
position should take on a greater role in ensuring that taskings and responses are tracked.

Recommendation CFR 1: Embassy Copenhagen should implement a system to track taskings
and clearances by sections through action and information memoranda. (Action: Embassy
Copenhagen)

        Following the 2011 inspection, the EUR front office and desk sustained its interaction
with the embassy. In the spring of 2011, the EUR Assistant Secretary prepared for the first time a
performance evaluation report for the Ambassador; the bureau also prepared such reports for
nearly all of its chiefs of mission. In the summer of 2011, the principal deputy assistant secretary,
as well as the deputy assistant secretary and office director responsible for Denmark, changed.
Although the Ambassador had not had the opportunity to meet all of these officials in person at
the time of the CFR, these senior officials were in regular contact with the mission and provided
support and advice.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
       The mission continues to enjoy a high level of satisfaction with interagency cooperation
and front office support. Interagency interaction with the front office and each other remains
constant and effective.

The Political/Economic Section

        The political/economic section has increased the quantity and quality of its reporting by
cable since the issuance of the 2011 report. Reporting officers have increased their face-to-face
engagements with Danish contacts in and outside government, although some reporting officers
would welcome even greater engagement opportunities.

       The Ambassador has established guidelines for messages and emails that the DCM may
approve. It is not always clear to mission staff the exact criteria for messages the DCM is
authorized to approve. By default, there is a tendency in all sections to assume the Ambassador
will want to approve most messages. That assumption is correct.

        Delays in release of reporting are not as common as was the case in 2010. Some reporting
still awaits the Ambassador’s approval for more than the 1-day limit that she set after the
inspection. Most often such delays occur when the Ambassador is out of town or when her
schedule is heavily booked.

        Washington end users have noted improvement in the quality and quantity of embassy
reporting. They regard most reporting as timely and welcome the increase in analysis, as well as,
with the advent of a new Danish Government, the expansion of biographic reporting.

        The environment, science, technology, and health officer’s rating and reviewing officers
have changed, as the inspection report recommended. The officer felt that the Bureau of Oceans
and International Environmental and Scientific Affairs (OES) office director’s review provided a
fuller evaluation of his performance.

International Conference on Role of Women in Conflict

        In conjunction with the Government of Denmark, the embassy successfully convened an
international conference to mark the 10th anniversary of the UN Security Council Resolution
1325 on Women, Peace, and Security. The embassy included a separate goal paper in its FY
2013 Mission Strategic and Resource Plan to follow up the well-regarded conference. The
embassy is relying on existing resources to pursue those goals.

Greenland

        Greenland appeared in disparate parts of the original inspection report. The inspection
report included recommendations on Greenland in the program and policy implementation and
consular sections and commentary in the public diplomacy section. The program and policy
implementation section recommendation is being reissued and revised.

                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The 2011 inspection report noted that the public affairs section (PAS) maintains one
American Corner in the Greenlandic capital of Nuuk. This center receives only limited use and
because of the great expense of travel to Greenland has not hosted a program by an American
speaker or mission staffer in recent memory. The 2011 inspection report acknowledged that the
corner is primarily a symbolic presence and recommended that the embassy decide the future of
the corner considering both budget and level of activity. This decision, however, needs to be
made in a broader context of overall engagement with and presence in Greenland.

       The same inspection report recommended that the consular section implement a plan to
increase support to American citizens in need of consular services in Denmark. This
recommendation, which is reissued in this CFR, also needs to be seen in the context of a broad
missionwide strategic plan for Greenland.

        Following the inspection, the embassy established a Greenland working group which
meets regularly and is comprised of sections and agencies active in Greenland. The working
group has taken the lead on projects such as preparation for the Secretary of State’s participation
in the May 2011 Arctic Council meetings in Greenland and the U.S.-Denmark-Greenland Joint
Committee meeting in June 2011.

       Mission leadership remains enthusiastic about advancing U.S. interests in Greenland. The
mission is aware of the considerable financial and human resources costs of having staff travel to
and promote U.S. interests in Greenland. Mission leaders know they do not have the resources to
do work they feel needs to be done.

        Although the chief of mission statement in the 2013 Mission Strategic and Resource Plan
laid out wide-reaching objectives for Greenland, the mission did not follow up on the 2011
inspection recommendation to develop a broader embassy strategic approach to Greenland or for
Greenland-specific reporting. These objectives have not been reinforced by reporting to
Washington that: helps Department bureaus and offices or other agencies appreciate the totality
of U.S. interests in Greenland; links embassy objectives to the support of those interests; clarifies
and explains additional or continuing resources that may be needed to carry out the objectives;
and seek Washington’s support. EUR and OES have particularly important roles to play in
backing the mission’s efforts. Not everyone in Washington interested in Greenland read or
remembers the chief of mission statement. A message or series of messages along the lines laid
out above is needed if the mission wants to meet the objectives it presented in the 2013 Mission
Strategic and Resource Plan.

Recommendation CFR 2: Embassy Copenhagen should prepare a message or series of
messages to the Department defining the totality of U.S. interests in Greenland, linking embassy
objectives to support those interests, clarifying and explaining additional or continuing resources
needed to carry out those objectives, and seeking resources and support. (Action: Embassy
Copenhagen)




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Public Diplomacy
       The 2011 inspection report described a small PAS that was doing a good job and that had
been very active in social media. The inspection report noted this but highlighted several
weaknesses in the area of strategic planning and management. Between the inspection and this
CFR, the mission has complied with the majority, but not all of the recommendations.

Information Outreach

         The Ambassador maintains an active media presence and is the public face of the
mission. The 2011 report recommended that the mission develop and carry out a long-range
media strategy for the Ambassador. This strategy was not put into place in the remainder of FY
2011. A notional media plan for FY 2012 covering the period November 2011 through
November 2012 has been produced. During the inspection, the Ambassador and DCM met with
the entire PAS staff to discuss the proposed strategy, and engaged in a detailed discussion of her
priorities. While the PAS staff reported that they provide informal verbal media briefings to the
Ambassador in the context of her public appearances, there is no process in place to coordinate
action among the various sections that have a stake in a particular media event. The CFR team
agrees with the original inspection team and believes that the discipline and structure provided
by the formal procedures in the original recommendation will provide clarity and secure
coordination between sections involved in the Ambassador’s interaction with the media. Broader
communications issues are addressed in the executive direction section of this report.

Recommendation CFR 3: Embassy Copenhagen should implement a long-range media
strategy for the Ambassador that includes public interviews, speeches, and informal, off-the-
record gatherings with journalists. (Action: Embassy Copenhagen)

Recommendation CFR 4: Embassy Copenhagen should institute a process so that all public
events and briefing materials prepared for the Ambassador’s public appearances are coordinated
with and contain input from all embassy sections including public affairs. (Action: Embassy
Copenhagen)

        The mission maintains an active social media presence. The Ambassador’s personal
Facebook page supplements the embassy’s site, which projects a personal as well as a policy
presence on social media. The previous inspection recommended that the mission bring its social
media sites into compliance with Departmental guidance regarding terms of use (5 FAM 793.4
b.) and privacy statements (5 FAM 795.1 a.- i.). In responding to this recommendation, PAS
Copenhagen encountered challenges in posting the required statements. In coordination with the
Bureau of International Information Programs and other embassies’ public affairs sections, PAS
Copenhagen devised a general statement on its Internet home page that it has linked to all of its
social media, thereby complying with Department requirements.

Education and Exchanges

      For the mission to stay in contact with the individuals who have participated in public
diplomacy exchange programs that entail a considerable expenditure of U.S. resources, the

                                          7
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

mission needs to manage its contacts effectively. PAS Copenhagen responded positively to two
previous recommendations on the Contact 7 database; however, the staff has not yet had training
on the system. The staff may not be using the new system effectively. The contact management
system needs to be a working tool rather than an archival system so that the mission engages
returned program participants and ensures that essential information survives the departure of
experienced LE staff. Developing the habit of using this contact database will improve
programming and facilitate transfer of information to new employees.

       Informal CFR Recommendation 1: Embassy Copenhagen should maintain and use the
       Contact 7 database in developing programs and expanding alumni outreach.




                                          8
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


   Consular Operations
           The original inspection report described the consular section at Embassy Copenhagen as
   a well-functioning team and appropriately staffed. The CFR team found that it was still
   performing well and that morale appeared to be good.

           The biggest change in the section was the reduction of the section from three American
   officers (a section chief, an entry-level consular officer, and a split consular/political rotational
   entry-level officer) to two. In August 2011, the Bureau of Consular Affairs determined that
   immigrant visa procedures for three of the Scandinavian countries would be consolidated in
   Stockholm (11 STATE 85467). As a result, Copenhagen lost the 2-year consular entry-level
   position and two LE staff positions. The vice consul (position 30095000) left the mission in
   August and has not been replaced. The section appears to have dealt successfully with the
   required staff restructuring, and the section remains adequately staffed given the reduced
   consular burden.
(b) (5)




          Informal CFR Recommendation 2: (b) (5)


           Providing needed consular services to American citizens in Greenland was the subject of
   a prior formal recommendation. The mission was directed to prepare and implement a plan to
   increase support to American citizens in Greenland. The consular chief and a LE staffer traveled
   to Greenland in September 2011, but at the time of the CFR, had not developed a plan to deal
   with the issue. The CFR team reissued the original recommendation but notes that this
   recommendation needs to be seen in the broader context of an overall missionwide strategy for
   engagement with Greenland. The section on Greenland addresses this subject.

   Recommendation CFR 5: Embassy Copenhagen, in coordination with the Bureau of Consular
   Affairs and the Bureau of European and Eurasian Affairs, should implement a plan to provide
   support for American citizens in need of consular service in Greenland and should integrate this
   plan into an overall mission strategy for engagement with Greenland. (Action: Embassy
   Copenhagen, in coordination with CA and EUR)

           The original inspection report also identified the lack of a warden system in Denmark as
   an area that should be addressed. The mission has taken the position that the large number of
   American citizens resident in Denmark, the small embassy staff, the deep integration of these
   mostly long-term residents, and the low threat level all argue against setting up a warden system.

                                               9
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

The inspectors recommended that the consular section consult with other missions in the region
to determine how they deal with similar situations and seek the Office of Overseas Citizens
Services’ concurrence on whether they have adequately addressed the requirements of 12 FAH-1
H-324 and 7 FAM 070. This informal recommendation is reissued with modifications.

       Informal CFR Recommendation 3: Embassy Copenhagen should consult with other
       similar missions having large populations of long-term resident American citizens to
       determine how they deal with warden issues, develop a strategy for contacting American
       citizens, and seek concurrence on the final policy from the Bureau of Consular Affairs
       Office of Overseas Citizens Services.

        The 2011 inspection report informally recommended that the mission arrange annual
presentations on visa referrals and periodically update the visa referral policy. At the time of the
CFR no action had been taken on this informal recommendation. The consular chief said he was
awaiting the formal posting of changes to 9 FAM Appendix K - Visa Referral Systems before he
put these briefings into effect; however, he should use current regulations. This informal
recommendation is reissued as a formal recommendation.

Recommendation CFR 6: Embassy Copenhagen should provide all staff members with annual
presentations on the visa referral policy and procedures. (Action: Embassy Copenhagen)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


Embassy Restaurant
        The chancery has a restaurant in its basement called The Diplomat that is used during
regular working hours as a traditional embassy cafeteria catering to mission employees. The
restaurant has been closed since the flood, but it is scheduled to reopen in spring 2012. It is
owned and operated by a Danish chef. Mission employees hold typical representation functions
in the restaurant, such as luncheons with contacts. Unlike most embassy cafeterias, The Diplomat
is also used for after-hours events with groups of non-embassy contacts organized by the owner.
These events take place anywhere from one to three times a week with some 500 guests per
month. American food and wines are served at the events and the owner often puts on themed
dinners, such as one featuring Hawaiian cuisine. These after-hours events have evolved over the
last 30 years, and the arrangements and licensing agreement governing them need to be
reviewed.

After-hours Events

        The CFR team did not develop findings that would lead to a recommendation to cease
after-hour events in The Diplomat. The CFR team identified a number of practices and possible
vulnerabilities that deserve a close review by the Department and Embassy Copenhagen before
the restaurant resumes operations in spring 2012.

       Although mission employees likely initiated after-hours events for representational
purposes in the past, the events are now initiated by the owner through his contacts, reputation,
and advertising. The Diplomat advertises on a number of Internet Web sites. The following
excerpt is from the Web site “Everything about Copenhagen” that belongs to one of
Copenhagen’s daily newspapers. 2 The article is titled “On American Ground”:

             This place is the most American in the city. In fact it is a little chunk of the USA dropped
             down in the middle of Osterbro. The American embassy comes complete with American
             soldiers on guard. Go by and take a look at them, or come in to arrange a visit to The
             Diplomat. The Diplomat will accommodate parties of at least 25 people. It offers dinner
             prepared by Chef Keld Johnsen, who has for the last 30 years been interested in
             American food and especially American wine, which he serves and discusses. And as an
             extra bonus, a visit to The Diplomat is like a journey to the U.S., complete with the
             presentation of your passport and the examination of your baggage, so that one can
             almost imagine that you are back in the check-in line at an American airport.

        The Diplomat has its own Web site 3 that describes the events, provides pricing and
dinner times, and allows Internet users to contact the owner to arrange an event. One section of
The Diplomat Web site says:

             Meetings in the embassy’s auditorium can be arranged with the embassy and The
             Diplomat restaurant. The day’s meetings can be arranged with various catering services
             and can conclude with dinner in The Diplomat. The Diplomat can meet your demands for

2
    www.aok.dk/restaurant-og-cafe/en-bid-af-usa
3
    www.restaurantdiplomat.dk
                                                        11
                                            SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED

           high quality, good American service, specially imported American ingredients, and
           American wine from various states. If you have special wishes for your meetings,
           promotions, presentations or dinner, contact us for suggestions especially created for you
           and your customers.

        Guests cannot walk into the restaurant off the street, but it appears that the restaurant is
open to almost any group of 25 or more. Groups in attendance over the last year include wine
clubs, Danish banks, pharmaceutical companies, adult education groups, and the American
Chamber of Commerce. According to mission guidance, the restaurant must provide the event
guest list to the mission 10 days in advance; however, the CFR team found lists were sometimes
provided to the mission on the day of the event.

        According to the Foreign Service Buildings Act, Department buildings may be acquired
and altered for the use of the diplomatic or consular establishments of the United States.
Guidance in 15 FAM 246.2 contains detailed provisions on when U.S. Government-funded
housing can be used for commercial activities (to include limitations on the level of use by non-
government employees) and 6 FAM 546 outlines the extent to which American Recreation
Association facilities may be used by guests. By contrast, the FAM is silent on when and if a
section of the chancery, currently used for the benefit of mission employees, can be used after-
hours to support a commercial activity. OBO representatives referred the CFR team to the Office
of the Legal Adviser. 4

        The Ambassador, DCM, and other mission employees with representation responsibilities
stated that the after-hours events advance the interests of the United States because they allow
mission staff to reach audiences that they would not ordinarily reach. According to embassy
guidance, each event must be “hosted” by a mission employee and advance embassy interests.
Hosting responsibilities include giving a presentation to the group. Hosts in 2011 have included
the Ambassador, DCM, political officer, Foreign Commercial Service representative, vice
consul, the Ambassador’s office management specialist, the management officer’s office
management specialist, and the consular special assistant.

        The mission and the restaurant have a symbiotic relationship. The mission provides the
restaurant benefits that improve the restaurant’s attractiveness on the local market; the restaurant
gains prestige by hosting events in the U.S. Embassy. It also benefits from free rent, free utilities,
and, until the flood, one embassy-paid employee. The restaurant owner funds the entire event
with proceeds from the group and retains any profits.

         The mission, on the other hand, gains access to audiences that they would not necessarily
engage otherwise, and sees this as an important part of its public outreach program. Mission
employees hosting the evening events enjoy a no-cost representation opportunity. The Diplomat
provides the U.S. officer hosting the event, at no cost to the mission, a six-person table. The host
is free to invite anyone he or she chooses and may use the seats for representation purposes.

4
  After the draft version of this report was issued, OBO inserted language in the Real Property Disposition FAM section (15 FAM 530 and 15
FAM 450) requiring that missions obtain approval from OBO’s Office of Buildings Acquisitions and Sales and L’s Office of Buildings and
Acquisitions before licensing out Department property. The FAM remains silent on the type of commercial activity missions may license to,
though the model agreement at 15 FAM exhibit 534(2) does prohibit licensees from using property for illegal or immoral purposes or for
gambling or selling alcoholic beverages. The model agreement applies to property that is not needed for current operations, unlike most embassy
cafeterias.
                                                       12
                                           SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED

Since the cost of dinner is in excess of $135 a person, this is a gift to the individual or to the
embassy of more than $750. While recognizing the value of expanding representational outreach,
the CFR team questioned whether a vendor operating under embassy aegis, providing such a gift
to the employee or embassy, meets the ethics standards governing gifts. U.S. appropriations
subsidize a commercial operation and the commercial business augments the Department’s
representation and public affairs appropriations.

         A licensing agreement and a memorandum of understanding support the agreement
between the mission and the restaurant owner. Licensing agreements are not governed by Federal
Acquisition Regulations and the Office of the Procurement Executive (A/OPE) does not provide
oversight. During CFR fieldwork, licensing agreements were not covered in the FAM; A/OPE’s
Web site contained the only semi-official reference to licensing agreements in its model cafeteria
licensing agreement. A/OPE’s model cafeteria agreement is for the benefit of mission employees
during working hours and it states that no U.S. funds may be obligated under the agreement. The
model agreement also states that the cafeteria shall not be liable for payment of any rent or
utilities. Like OBO, A/OPE representatives suggested that the CFR team contact the Office of
the Legal Adviser with questions. 5 A/OPE’s model cafeteria licensing agreement states that no
U.S. funds may be obligated under the agreement. The model agreement also states that the
cafeteria shall not be liable for payment of any rent or utilities. A recently issued model licensing
agreement at 15 FAM 534 (2) states that the licensee will bear the cost of water, electricity, gas
and other utilities.

Recommendation CFR 7: The Office of the Legal Adviser, in coordination with Embassy
Copenhagen, should determine before the restaurant reopens, whether the mission may house a
commercial activity in the chancery for the after-hours events organized by the owner/chef of
The Diplomat, whether the acceptance of no-cost meals by embassy employees or the embassy is
allowed under ethics rules, and if a licensing agreement is the proper vehicle for clarifying the
arrangements. (Action: L, in coordination with Embassy Copenhagen)

Funding

        Funding arrangements for after-hours events need to be clarified. An employee funded
out of International Cooperative Administrative Support Services (ICASS) worked in the
restaurant as a “kitchen & service assistant.” The regional security office provides local guards
for after-hours events and the restaurant owner reimburses the mission for those services. Both
the regional security office and finance office staffs spend time administering contract and
overtime payments for the events. OBO has funded security upgrades, estimated at over
$160,000, to reduce vulnerabilities associated with these events. If the events are for
representation or public affairs purposes, it would be more appropriate to use those
appropriations to support the events. The Bureau of Resources Management referred OIG to the
Office of the Legal Adviser.


5
  OBO added a model licensing agreement to 15 FAM exhibit 534(2) after the draft version of this inspection report was sent out for comment. It
is unclear to what extent OBO’s model agreement will be used to regulate chancery space serving as mission cafeterias because the OBO’s model
agreement and related FAM provisions appear to apply to U.S. Government space that is not currently needed by the mission. A/OPE has not yet
updated the model cafeteria licensing agreement found on its Web site. A/OPE and OBO model agreements contain contradictory guidance
related to who bears the cost of water, electricity, utilities, maintenance and repairs.
                                                       13
                                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 8: The Office of the Legal Adviser, in coordination with the Bureau of
Resources Management, should clarify for Embassy Copenhagen which funding sources should
be used to support after-hours events. (Action: L, in coordination with RM and Embassy
Copenhagen)

Other Licensing Agreement Issues

        Whether or not the after-hours events described above are deemed appropriate, the
current licensing agreement and oversight procedures need to be updated to address a number of
additional vulnerabilities. Among the issues that need to be considered are:

   •   The current agreement’s scope of work states that the restaurant is to be operated for the
       benefit of “employees of the American Embassy Copenhagen and Embassy visitors.”
       The agreement, if deemed proper by the Office of the Legal Adviser, should read “for
       employees of the American Embassy Copenhagen and their visitors.”
   •   The current licensing agreement is missing a page covering sections VIII D-F on
       Indemnification, Protection of American Embassy Buildings, Equipment and Grounds,
       and Licensor-Furnished Property. It is not clear who would be held liable if a member of
       one of the after-hours groups is injured on U.S. Government property.
   •   The list of licensee-furnished items at exhibit E has not been translated into English.
   •   The current licensing agreement states that the administrative officer will provide health
       inspections of the facilities. The administrative officer is not qualified to perform such an
       inspection, but the mission’s regional medical officer last inspected the facility in
       December 2010, and did not find any problems. However, given the extent to which the
       cafeteria has been used by guests, the mission should develop a plan for ensuring that
       Danish health standards are met in The Diplomat.
   •   Although the agreement states that the licensee, at its own expense, must obtain insurance
       against fire, theft, flood, liability, and for medical and employment expenses, covering all
       licensee-owned and operated equipment behind the service counter as required by law, it
       does not require that the licensee certify that the required insurance is obtained. Mission
       staff has not in recent past asked the licensee for evidence of insurance.
   •   The mission should ensure that the licensee is complying with appropriate Danish
       taxation requirements.
   •   Under the current licensing agreement, one mission-funded employee works in the
       restaurant as a “kitchen & service assistant.” That employee acts as a cashier and
       provides cleaning services. The model licensing agreement on A/OPE’s Web site states
       that appropriated funds may not be used for the cafeteria. The pre-flood arrangement may
       violate 31 U.S.C. § 1301(a).

OBO added a model licensing agreement to 15 FAM exhibit 534(2) after the draft version of this
inspection report was sent out for comment and OBO and L must now approve licensing
agreements in accordance with 15 FAM 535.8. Newly issued guidance does address some of the
concerns above. It is still unclear to what extent OBO’s model agreement will be used to regulate
chancery space serving as mission cafeterias; A/OPE has not yet updated the model cafeteria
licensing agreement found on its Web site.
                                         14
                             SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED



Recommendation CFR 9: Embassy Copenhagen should seek assistance from the Office of the
Legal Adviser to update its licensing agreement. (Action: Embassy Copenhagen, in coordination
with L)

Security

        The restaurant’s after-hours events pose a number of security vulnerabilities not normally
associated with embassy cafeterias. Most significantly, guests must travel from the chancery
lobby through the hardline to the basement where the restaurant is located. Reconfiguring the
space to bring it into compliance with security standards is cost prohibitive. The mission has
gone to great lengths to manage security risks including installing security doors and cameras
and providing extra local guards for the functions. During the last inspection, OIG recommended
that the mission add an additional layer of security by: enforcing (b)(1)                 which
requires that mission employees escort guests; restricting use of the executive dining room to
formal representation events; and (b)(1)
develop an appropriate escort policy. The mission substantially complied with (b)(1)
by performing background checks on restaurant employees, similar to those performed on LE
staff who have escort responsibilities.6 The mission also convened the working group and
changed procedures related to use of the executive dining room. However, new procedures
related to the executive dining room have not yet been documented or disseminated.

Recommendation CFR 10: Embassy Copenhagen should document in either the licensing
agreement or memorandum of understanding new procedures related to use of the executive
dining room. (Action: Embassy Copenhagen)




6
  Department regulations (3 FAM 7222.1-4 (1)) state that contractors should be cleared to the same level as Foreign Service nationals if they are
being used in the same manner as Foreign Service nationals. While restaurant employees are under a licensing agreement, their employment
arrangements are similar to those of contractors.
                                                        15
                                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Resources Management
        The majority of offices in the management section received good reviews during the last
inspection. The prior inspection report described a backlog of facilities and general services
office (GSO) work caused by gaps in positions, an absence of regional facilities maintenance
support, and an absence overall of planning and leadership. The mission has made progress in
these areas. Most significantly, the management officer obtained OBO funding to hire a facilities
manager and ICASS funding for a deputy general services officer. These two positions will
provide needed support and continuity. The management officer was also quick to obtain OBO
and EUR support to deal with the chancery flood and a larger-than-usual summer cycle turnover.

       While the management section made great strides, especially in light of the devastating
flooding of the chancery and mission residences in July 2011, there is room for improvement.
The section needs to strengthen communication with its customers and begin to implement
improvements to facilities and general services operations.

        The management section received below average ICASS customer survey scores
(particularly in GSO and facilities operations) in the most recent survey, which was administered
after the OIG inspection and generally mirrored findings contained in the inspection report.
Embassy Copenhagen ranked below the worldwide average on 10 of the 12 ICASS cost centers
in GSO and facilities sections. Embassy Copenhagen’s overall ICASS services score was 3.99
compared to the worldwide average of 4.03. The management officer has made great progress
turning the operations around. However, ICASS customer survey scores have not been discussed
formally in an ICASS council meeting and more broadly with mission employees to dispel
service-level misperceptions and act on valid complaints. Results should be considered by the
DCM when preparing the management officer’s rating.

       Informal CFR Recommendation 4: Embassy Copenhagen should formally discuss the
       results of its International Cooperative Administrative Support Services customer survey
       with the International Cooperative Administrative Support Services council, country
       team, and possibly in an all hands meeting.

Facilities

         The prior inspection report noted that: the mission did not have a schedule to address its
maintenance and repair projects, causing some funds to lapse; preventative maintenance systems
and procedures were inadequate, allowing preventable problems; and government-owned
properties had furniture and furnishings at the end of their useful life, reflecting poorly on the
mission. As noted, the management officer secured funding from OBO to hire an LE American
facilities manager. An on-site permanent position would assist the mission in long-term facilities
planning and execution needed to deal with its aging facilities. The recently-selected manager
was going through the clearance process at the time of the CFR and will have a number of
projects on his hands.




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Maintenance and Repair

        The mission still does not have a written planning and implementation schedule
prioritizing maintenance and repair projects as recommended in the inspection report. Although
temporary-duty facilities managers have provided some assistance, the mission has not
conducted general or annual inspections of properties as required in 15 FAH-1 H-113 and 15
FAH-1 H-116, nor developed a long-range (2-year) schedule of significant maintenance events.
Needed repairs could go unnoticed creating larger problems. For example, although plumbing
vulnerabilities were pointed out to the CFR team during a visit to the chief of mission residence
(CMR), the project was not included on any mission request for funding.

Recommendation CFR 11: Embassy Copenhagen should conduct required facilities
inspections and develop a written planning and implementation schedule that prioritizes
maintenance and repair projects, identifies timelines, and schedules advance work as necessary.
(Action: Embassy Copenhagen)

        The original inspection report also noted that the mission’s preventative maintenance
program, work orders for Windows, was not working properly and mission staff were not
trained. A representative from OBO traveled to Copenhagen and provided the needed software
upgrade and training. However, staff is still unable to delete database entries for equipment no
longer in service. Additionally, maintenance staff does not update the database in a timely
manner as work is completed.

       Informal CFR Recommendation 5: Embassy Copenhagen should request instructions
       from the Bureau of Overseas Buildings Operations on how to delete entries for
       equipment no longer in service from the work orders database.

       Informal CFR Recommendation 6: Embassy Copenhagen should regularly review the
       status of work orders to ensure that projects are completed and records up-to-date.

Representational Furnishings

        The 2011 inspection report noted that representational furniture included in the CMR and
DCM’s residence were deteriorated, and recommended that OBO send a representative to review
the condition of furnishings. OBO did not send a representative to Copenhagen but agreed, based
on mission-provided pictures, to replace some furniture in the CMR’s representational space. At
the time of the CFR, the new furniture had been delivered to Copenhagen but had not yet been
placed in the CMR. The GSO is not sure which items are to be replaced. CMR inventory records
show that most CMR furnishings are past recommended replacement dates as specified in 14
FAH-1 H-213 Exhibit H-213; however, about one-third of the replacement dates are misleading
because the furnishings were not used until 2005. Additionally, the condition of almost all of the
representational furniture in nonexpendable property application records is shown as
“acceptable.” The clerk responsible for updating inventory records recently left the mission. The
GSO plans to seek assistance from the Frankfurt Regional Support Center to conduct its next
physical inventory and reconciliation. The CFR team counseled the general services officer to
seek clarification from OBO on what representation pieces should be replaced.

                                         17
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal CFR Recommendation 7: Embassy Copenhagen should, during the next
       physical inventory, update its inventory records to show the current condition of property
       in representational spaces.

       Some of the rugs in the CMR were not securely fastened to the floor and the edges curled
up unattractively in some places. While those carpets will eventually be replaced, the mission
can take steps to improve the appearance such as installing carpet trim in doorways.

       Informal CFR Recommendation 8: Embassy Copenhagen should install carpet trim in
       the doorways of the chief of mission residence to secure the carpet edges.

        New furnishings for the DCM’s residence arrived at the mission in May 2011, including
large and small dining tables, 24 dining chairs, 2 large credenzas, 2 large beige room dividers, 2
end tables, and 2 marble top coffee tables. The DCM stated that the furnishings are not properly
sized and the furniture is now being stored in the warehouse. The management officer did not
know when those furnishings were requested or ordered.

Recommendation CFR 12: Embassy Copenhagen should review furniture request records for
property that arrived in May 2011 to determine why items were requested. If furnishings are not
needed, the mission should notify the Bureau of Overseas Buildings Operations so that another
post in need may use them. (Action: Embassy Copenhagen, in coordination with OBO)

General Services Operations

        The prior inspection team identified a number of problems in the GSO. Many in the
section were relatively new and had not yet had training; the process for assigning and making
new residences ready for incoming officers was not working; and communication with customers
on furniture and supply procedures was not adequate. The recently hired deputy general services
officer will supervise half of the general services staff while the U.S. direct-hire general services
officer will directly supervise her and the other half of the staff. Permanent oversight over part of
the GSO staff should allow for needed continuity when American general services officers turn
over.

Training

        In response to a prior recommendation, the mission developed training plans for general
service and facilities management employees. Additionally, a number of staff received
supervisory training, and the procurement and work orders clerks received hard skills training.
However, back-up responsibilities for facilities management staff have not been assigned.
Additionally, the mission recently lost two LE staff with key responsibilities and a number of
employee position descriptions are currently under review.

Recommendation CFR 13: Embassy Copenhagen should develop a training plan for
employees in the general services and facilities offices to provide appropriate training both for
employees’ primary and backup responsibilities. (Action: Embassy Copenhagen)


                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Housing

        The mission has instituted new quality control procedures to improve the housing make-
ready process. The housing board met monthly from April through October, 2011, and kept good
notes of its meetings. On the general services side, the management officer held an offsite with
GSO staff to identify all steps necessary to prepare a residence for an incoming U.S. direct-hire.
The information management section then developed a SharePoint-based Web page called
Housing Online Make-ready Environment (HOME) with all of the steps and responsible offices.
As tasks are completed, offices change the status in the application. Everyone involved can view
the HOME application and see where they are in the process. Weekly meetings are also held
with offices involved in the housing process. Although the section made great progress with
these recommendations, some offices including the security office, have not updated the
application when tasks are completed. The general services officer stated that overseeing the
mission’s housing and make-ready process would be among the deputy general services officer’s
primary responsibilities.

       Informal CFR Recommendation 9: Embassy Copenhagen should implement controls to
       monitor entries into the Housing Online Make-ready Environment application to ensure
       that needed tasks are completed and data in the application kept up-to-date.

Supplemental Medical Plan for Locally Employed Staff

        The mission responded to requests from LE staff to participate in a supplemental medical
plan that would provide them faster access to medical services. While LE staff originally hoped
the mission would fund contributions, the Department will not do so. About one-third of the
mission employees have expressed interest in the plan, even if they must fund the contributions
themselves. Because no appropriated funds will be used, neither the Bureau of Human Resources
Office of Overseas Employment nor A/OPE had any objections to the mission’s administering
the plan. The CFR team was told that administering the program would not be an onerous
additional burden. At the time of the CFR, mission leadership had not approved the supplemental
medical plan.

Recommendation CFR 14: Embassy Copenhagen should determine if any additional resources
are needed to implement and administer the supplemental medical plan for local employees and
then decide whether or not to administer the plan. (Action: Embassy Copenhagen)




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


   Security
          The 2011 inspection report noted that the security program at Embassy Copenhagen was
   appropriately sized and correctly focused on current threats. The report said that the Ambassador
   and DCM provide support and appropriate oversight to the security program and have
   confidence in the regional security officer. The CFR team found that these conditions still apply.
   The mission has complied with the majority of the recommendations and is dealing with the rest.

   Physical Security

           The 2011 inspection report described a number of physical security issues that have been
   satisfactorily addressed in the course of a physical security upgrade that began in November
   2010. (b) (5)
(b) (5)




                                            20
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


   Alternate Command Center

          The mission successfully addressed the 2011 report’s recommendations that it relocate
   and equip an alternate command center to assure continuity of operations during an emergency.
(b) (5)




                                           21
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
       The CFR team found that Embassy Copenhagen had complied with many of the formal
and informal recommendations from the 2010 inspection. A CFR automatically closes all formal
and informal recommendations from the inspection, but these may be reopened, revised and/or
reissued by the CFR, as appropriate.

        Of the 41 formal and informal recommendations in the 2011 report and its security
annex, 34 were closed before the CFR, four were resolved/open, and three were unresolved. As a
result of the CFR, of the three unresolved recommendations (b) (5)
   two were closed and one revised and reissued. Thirty-one of the 37 formal recommendations
that were closed before the CFR remain closed, but six (recommendations 10, 11, 16, 17 and
(b) (5)                              were reissued. Two of the four recommendations that were
resolved/open were closed under the CFR. (b) (5)                               which were
resolved/open, were closed and reissued.

        Of the 18 informal recommendations, 13 were closed by the CFR. Informal
recommendation 2 was reissued as a formal recommendation. Informal recommendations 10, 12,
(b) (5)                                       were reissued.




                                        22
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of CFR Recommendations
Recommendation CFR 1: Embassy Copenhagen should implement a system to track taskings
and clearances by sections through action and information memoranda. (Action: Embassy
Copenhagen)

Recommendation CFR 2: Embassy Copenhagen should prepare a message or series of
messages to the Department defining the totality of U.S. interests in Greenland, linking embassy
objectives to support those interests, clarifying and explaining additional or continuing resources
needed to carry out those objectives, and seeking resources and support. (Action: Embassy
Copenhagen)

Recommendation CFR 3: Embassy Copenhagen should implement a long-range media
strategy for the Ambassador that includes public interviews, speeches, and informal, off-the-
record gatherings with journalists. (Action: Embassy Copenhagen)

Recommendation CFR 4: Embassy Copenhagen should institute a process so that all public
events and briefing materials prepared for the Ambassador’s public appearances are coordinated
with and contain input from all embassy sections including public affairs. (Action: Embassy
Copenhagen)

Recommendation CFR 5: Embassy Copenhagen, in coordination with the Bureau of Consular
Affairs and the Bureau of European and Eurasian Affairs, should implement a plan to provide
support for American citizens in need of consular service in Greenland and should integrate this
plan into an overall mission strategy for engagement with Greenland. (Action: Embassy
Copenhagen, in coordination with CA and EUR)

Recommendation CFR 6: Embassy Copenhagen should provide all staff members with
annual presentations on the visa referral policy and procedures. (Action: Embassy Copenhagen)

Recommendation CFR 7: The Office of the Legal Adviser, in coordination with Embassy
Copenhagen, should determine before the restaurant reopens, whether the mission may house a
commercial activity in the chancery for the after-hours events organized by the owner/chef of
The Diplomat, whether the acceptance of no-cost meals by embassy employees or the embassy is
allowed under ethics rules, and if a licensing agreement is the proper vehicle for clarifying the
arrangements. (Action: L, in coordination with Embassy Copenhagen)

Recommendation CFR 8: The Office of the Legal Adviser, in coordination with the Bureau of
Resources Management, should clarify for Embassy Copenhagen which funding sources should
be used to support after-hours events. (Action: L, in coordination with RM and Embassy
Copenhagen)

Recommendation CFR 9: Embassy Copenhagen should seek assistance from the Office of the
Legal Adviser to update its licensing agreement. (Action: Embassy Copenhagen, in coordination
with L)



                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 10: Embassy Copenhagen should document in either the licensing
agreement or memorandum of understanding new procedures related to use of the executive
dining room. (Action: Embassy Copenhagen)

Recommendation CFR 11: Embassy Copenhagen should conduct required facilities
inspections and develop a written planning and implementation schedule that prioritizes
maintenance and repair projects, identifies timelines, and schedules advance work as necessary.
(Action: Embassy Copenhagen)

Recommendation CFR 12: Embassy Copenhagen should review furniture request records for
property that arrived in May 2011 to determine why items were requested. If furnishings are not
needed, the mission should notify the Bureau of Overseas Buildings Operations so that another
post in need may use them. (Action: Embassy Copenhagen, in coordination with OBO)

Recommendation CFR 13: Embassy Copenhagen should develop a training plan for
employees in the general services and facilities offices to provide appropriate training both for
employees’ primary and backup responsibilities. (Action: Embassy Copenhagen)

Recommendation CFR 14: Embassy Copenhagen should determine if any additional
resources are needed to implement and administer the supplemental medical plan for local
employees and then decide whether or not to administer the plan. (Action: Embassy
Copenhagen)

Recommendation CFR 15: (b) (5)


Recommendation CFR 16: (b) (5)




Recommendation CFR 17: (b) (5)




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal CFR Recommendation 1: Embassy Copenhagen should maintain and use the
Contact 7 database in developing programs and expanding alumni outreach.

Informal CFR Recommendation 2: (b) (5)


Informal CFR Recommendation 3: Embassy Copenhagen should consult with other similar
missions having large populations of long-term resident American citizens to determine how
they deal with warden issues, develop a strategy for contacting American citizens, and seek
concurrence on the final policy from the Bureau of Consular Affairs Office of Overseas Citizens
Services.

Informal CFR Recommendation 4: Embassy Copenhagen should formally discuss the results
of its International Cooperative Administrative Support Services customer survey with the
International Cooperative Administrative Support Services council, country team, and possibly
in an all hands meeting.

Informal CFR Recommendation 5: Embassy Copenhagen should request instructions from the
Bureau of Overseas Buildings Operations on how to delete entries for equipment no longer in
service from the work orders database.

Informal CFR Recommendation 6: Embassy Copenhagen should regularly review the status
of work orders to ensure that projects are completed and records up-to-date.

Informal CFR Recommendation 7: Embassy Copenhagen should, during the next physical
inventory, update its inventory records to show the current condition of property in
representational spaces.

Informal CFR Recommendation 8: Embassy Copenhagen should install carpet trim in the
doorways of the chief of mission residence to secure the carpet edges.

Informal CFR Recommendation 9: Embassy Copenhagen should implement controls to
monitor entries into the Housing Online Make-ready Environment application to ensure that
needed tasks are completed and data in the application kept up-to-date.

Informal CFR Recommendation 10: (b) (5)


Informal CFR Recommendation 11: (b) (5)

                                         25
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                           Name     Arrival Date
Ambassador                                          Laurie Fulton       Jul 2009
Deputy Chief of Mission                          Stephen Cristina      Sept 2010
Chiefs of Sections:
  Administrative                                  Jonathan Bayat       Aug 2010
  Consular                                         Robert Jachim       Aug 2009
  Political/economic                                Richard Bell       Aug 2009
  Public Affairs                                     Robert Kerr        Jul 2011
  Regional Security                                  Dimas Jaen        Sept 2010
Other Agencies:
  Department of Defense                     Christopher McDonald        Jul 2009




                                      26
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
A/OPE           Office of the Procurement Executive

BBG             Broadcasting Board of Governors

CFR             Compliance follow-up review

CMR             Chief of mission residence

DCM             Deputy chief of mission

Department      U.S. Department of State

EUR             Bureau of European and Eurasian Affairs

GSO             General services office

ICASS           International Cooperative Administrative Support Services

LE              Locally employed

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General

PAS             Public affairs section




                            27
                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2010 Inspection Formal
Recommendations
Recommendation 1: The Bureau of European and Eurasian Affairs should arrange
consultations in Washington for the Ambassador of Embassy Copenhagen at the earliest
opportunity. (Action: EUR)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Ambassador had consultations in Washington during December 2010 that
provided her with briefings and exchanges typically made available to outbound chiefs of
mission. The Ambassador’s consultation schedule and meetings met the intent of the
recommendation. This recommendation is closed.

Recommendation 2: Embassy Copenhagen should implement operating procedures that assign
the responsibility for administrative and day-to-day operations of the embassy, as well as the
decisionmaking related to these functions, to the deputy chief of mission. (Action: Embassy
Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: In its compliance statement, Embassy Copenhagen stated that the Ambassador
had devolved responsibility to the DCM for administrative and day-to-day operations even
before the 2011 inspection. The compliance statement further stated that the Ambassador and
DCM meet daily to review how the embassy is functioning, to identify potential problems, and to
discuss strategies for improvements of operations.

These one-on-one meetings do take place on a daily basis. They are followed four times per
week by senior staff meetings that include all Department section chiefs, the economic officer,
and the Defense attaché. On Wednesdays, the Ambassador-DCM meeting is followed by a
country team meeting that expands participation to include all agency heads. These expanded
meetings are not generally used as decisionmaking venues, although the Ambassador and DCM
do give guidance to country team members on some issues.

The Ambassador takes a hands-on approach to day-to-day operations of the mission and the
activities of its sections and officers. The DCM has his own one-on-one weekly meetings with
Department section chiefs and meets individually with agency heads on an ad hoc basis. Over
time, the DCM and Ambassador have developed a general understanding of issues that the DCM
may decide and those requiring her own approval. Mission staff does not always have a clear
appreciation for those issues on which the DCM has decisionmaking authority, but the working
assumption is that the Ambassador’s views will be solicited on most issues.

While these arrangements are not fully compliant with the 2010 inspection recommendation,
they do not impede the ability of mission staff to carry out their responsibilities. This
recommendation is closed.

                                         28
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 3: Embassy Copenhagen should issue an administrative notice that delineates
a clear chain of command and makes section heads fully responsible for the conduct of their
sections, and affirms their role in maintaining oversight and quality control over their section’s
work. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable non-compliance.

CFR Findings: In its compliance statement, Embassy Copenhagen said that no administrative
notice had been issued. Instead, the Ambassador and DCM discussed with senior staff the
importance of delegating authority as much as possible to their teams while providing strategic
or tactical guidance to them in areas for which they were responsible. The embassy compliance
statement added that the Ambassador and DCM saw it as being important for the development of
officers and for the free flow of information that the Ambassador and DCM be able to “reach
out” directly to officers on particular issues for information or brainstorming.

As discussed in the executive direction section of the report, the approach favored by the
Ambassador and DCM has produced a relatively flat organization, that is, one with minimal
hierarchy outside the embassy front office and where section heads are responsible for the
conduct of their sections but not always fully informed about what their subordinates have been
asked to do. There is in Embassy Copenhagen effectively no chain of command as that term is
generally understood.

Reissuing the 2011 inspection recommendation will not, in itself, address the issues identified by
the 2011 inspection. The current system has impacted mission (b) (5)        but it meets the
Ambassador’s needs and has not resulted in obvious lost opportunities or unforced errors. This
recommendation is closed.

Recommendation 4: Embassy Copenhagen should foster greater transparency, with the front
office exchanging more information regarding operations and activities with the working levels
of the embassy, to include attending working level meetings. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Ambassador leads on a monthly basis an expanded country team meeting to
which all mission staff, and especially LE staff, is invited. These meetings provide an
opportunity for the Ambassador to update staff on her engagements. Section chiefs and agency
heads provide updates on their own activities, challenges, and achievements. In addition, on a
rotating basis, a section, agency and special office, such as the community liaison office,
describes its role in the mission. The Ambassador and DCM engage with sections and agencies
in their workspaces, the DCM walks around, attending some sections’ staff meetings from time
to time, and the Ambassador and DCM engage regularly with the LE staff committee. The
Ambassador arranged a one-day offsite meeting for senior staff shortly after the 2011 inspection,
and arrangements were being made for another such offsite event at the time of the CFR.

These activities have increased communication across the mission. Nevertheless, transparency is
still not a hallmark of Embassy Copenhagen operations. (b) (5)

                                         29
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b) (5)



One particular weakness in communications is the mission’s reliance on internal emails and
direct engagements to exchange ideas and issue taskings. The CFR team issued a new
recommendation related to communications. This recommendation is closed.

Recommendation 5: Embassy Copenhagen should design and implement a clearance process
for the political/economic section to increase its productivity and the quality of its reporting.
(Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Copenhagen reported in its compliance message that the Ambassador
delegated authority to the DCM to approve “categories of reporting that do not warrant
ambassadorial review prior to transmission, namely routine reports and responses to demarches
that do not imply a significant policy change on the part of Denmark.” The DCM confirmed that
he has such authority and approves political/economic section messages in these categories. Not
all mission officers have a clear understanding of these parameters and tend to leave it to the
DCM to determine which of their messages need the Ambassador’s approval.

Regarding increased productivity as measured by more rapid front office approval of reporting,
mission staff told inspectors there has been some improvement in this regard. The Ambassador
established a standard that draft reports should be reviewed by the executive office within one
full working day of receipt. This standard appears to be most often breached when the
Ambassador is away from the office for more than one day and the DCM determines that an item
needs the Ambassador’s approval.

End users of Embassy Copenhagen political and economic reporting indicated that most embassy
reporting is timely. They noted a few instances in which such reporting may have been delayed,
but they felt they generally received the information when needed. This recommendation is
closed.

Recommendation 6: Embassy Copenhagen should implement a plan for the political/economic
section to report more context and undertake more analysis in its reporting. (Action: Embassy
Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: After the 2011 inspection, the embassy political/economic section developed a
reporting plan covering the last quarter of 2010 and all of 2011. The plan identified the
political/economic counselor and economic officer as primary drafters of the majority of reports.
The plan also identified several joint reporting opportunities involving the environment, science,
technology, and health office.

A review of embassy political and economic reporting shows a greater level of context and
analysis. Reporting of the Danish parliamentary elections, which resulted in a change of
                                          30
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

government, also included an increase in biographic reporting about new government figures.
This recommendation is closed.

Recommendation 7: Embassy Copenhagen should rebalance its use of email and informal
messages in favor of cables that report developments, analyze trends, and offer scenarios and
suggestions for U.S. policymakers. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Comparing the July to October 2010 period with the July to October 2011
period, the political/economic section more than doubled its output of cables. The number of
démarche reporting cables was roughly the same. National elections and formation of a new
government were distinguishing features of the July to October 2011 period. Reporting on the
elections, their outcome, government formation, and early embassy interactions with members of
the new government dominated embassy reporting.

The mission continues to exchange emails with Department offices. These emails primarily
cover operational issues. They do not serve as a substitute for front channel cables to report and
analyze political-economic developments. This recommendation is closed.

Recommendation 8: Embassy Copenhagen, in coordination with the Bureau of Oceans and
International Environmental and Scientific Affairs, should amend the work requirements of
position 57152000, such that the reviewing officer is an appropriate officer in the Bureau of
Oceans and International Environmental and Scientific Affairs. (Action: Embassy Copenhagen,
in coordination with OES)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Shortly after the inspection, Embassy Copenhagen, in coordination with the
Office of Policy and Public Outreach in OES, amended the work requirements statement of
position 57152000 to make the bureau’s office director the reviewing officer for the position.
The office director, in turn, prepared the review statement of the officer filling the position for
the April 2010 to April 2011 evaluation period. At the time of the CFR, a new office director had
not yet signed the current evaluation period work requirements statement, but he had it for
review. The issued identified by the 2010 inspection of Embassy Copenhagen has been resolved
satisfactorily. This recommendation is closed.

Recommendation 9: Embassy Copenhagen should review the priorities it set out in its 2012
Mission Strategic and Resource Plan and, in coordination with the Bureau of European and
Eurasian Affairs, identify those priorities that would benefit most from a normal programming of
resources. (Action: Embassy Copenhagen, in coordination with EUR)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Copenhagen reported holding a second progress review of its 2012
Mission Strategic and Resource Plan following the 2011 inspection. In addition, the embassy
claimed that it would specifically continue outreach programs related to the international
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Conference on the Role of Women in Global Security, which had required greater than normal
programming of resources, using existing post resources.

The mission prepared its 2013 Mission Strategic and Resource Plan under the same severe time
constraints that other missions faced due to the late arrival of instructions. EUR, under its own
time pressures, did not have an opportunity to review or comment significantly on Embassy
Copenhagen’s plan.

The chief of mission statement in the mission’s 2013 Mission Strategic and Resource Plan lays
out a clear and credible description of principal U.S. interests in Denmark and the Ambassador’s
highest priorities in pursuing those interests. In general, however, the mission is more tactical
than strategic in organizing its programs and activities. Most commonly, it has focused its efforts
on one-off and high-profile events, which it has developed, planned, and carried out well.

For example, the Department selected Embassy Copenhagen as a test bed for efforts to counter
violent extremism. Embassy leadership reacted aggressively to develop ideas and activities. The
mission received resources to pursue its program ideas in the last four months of FY 2011. In
response to the sudden windfall, the mission pulled together a meaningful and successful
program. It was not clear at the time of the compliance follow-up review, however, when or if
the mission would receive further financial or human resources to continue activities in this area.
This recommendation is closed.

Recommendation 10: Embassy Copenhagen should constitute a working group composed of
embassy elements active in Greenland, to determine whether and how to increase staff time in
Greenland; identify United States strategic interests there; and, in coordination with the Bureau
for European and Eurasian Affairs, develop recommendations for how to pursue these interests.
(Action: Embassy Copenhagen, in coordination with EUR)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Immediately after the 2011 inspection, the embassy established a Greenland
working group, chaired by the senior political officer. The working group meets twice monthly
or more often when engaged in specific activities, such as preparation for the Secretary of State’s
participation in the Arctic Council meetings that took place in Greenland in May 2011. The
working group is comprised of political/economic, public diplomacy, consular, and management
section officers and representatives of the environment, science, technology, and health office,
the Defense attaché office, and Detachment 1 (which is responsible for logistics and other
support to the U.S. air base at Thule, Greenland, and is based in Embassy Copenhagen). The
primary roles played by the working group have been to facilitate communication among
embassy elements with involvement in Greenland and to organize specific activities.

Mission leadership remains actively interested in Greenland and in advancing U.S. interests
there. The mission is aware of the considerable financial and human resources costs to the
mission of having staff travel to promote U.S. interests in Greenland. Mission leaders know they
do not have the resources they need to do the work they feel needs to be done.
The chief of mission statement in the mission’s 2013 Mission Strategic and Resource Plan laid
out mission objectives for Greenland, as follows:
                                          32
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



       To strengthen our alliance with Denmark and Greenland and implement National
       Security Presidential Directive-66/Homeland Security Presidential Directive-25 ("Arctic
       Region Policy"), we seek closer relations with Greenland's Self-Government; this will
       reinforce support for Thule Air Base, now with an expanded role in national missile
       defense, strengthen our strategic position in the Arctic, ensure continued robust bilateral
       scientific cooperation, and keep U.S. firms competitive for potentially great commercial
       opportunities. We will work to expand cooperation through the U.S.-Denmark-Greenland
       Joint Committee to build economic, educational/cultural and scientific links with
       Greenland and support prospective investments by American companies, and through the
       Arctic Council to support continued progress both for Greenland’s people and for the
       environment. Secretary Clinton’s visit to Nuuk for Arctic Council meetings in May 2011
       underscores the importance of this forum. In light of the increasing popularity of
       Greenland as a travel destination for American tourists and the likelihood of American
       commercial presence, we will increase our contingency planning to respond to
       unforeseen emergencies in that remote part of the world. To accomplish these goals, we
       will continue to seek opportunities and funding to increase travel to Greenland. We
       believe it is in the interest of the U.S. to have an ongoing presence in Greenland and will
       pursue with management and consular affairs appropriate opportunities to establish such
       a presence.

Although this chief of mission statement listed wide-reaching mission objectives for Greenland,
as noted in the Greenland section of this report, the mission did not follow up on the 2011
inspection recommendation to develop a broader embassy strategic approach to Greenland or for
Greenland-specific reporting. This recommendation is revised and reissued.

Recommendation 11: Embassy Copenhagen should develop and carry out a long-range media
strategy for the Ambassador that includes public interviews and speeches, as well as informal,
off-the-record gatherings with journalists. For these encounters, the Ambassador should receive
briefing materials covering key issues. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Although the initial compliance report (11 MDA 27056 – 4/20/11) said that the
mission had a long-range media strategy in place and was preparing issue-oriented briefing
material, Embassy Copenhagen was not able to provide this documentation for FY 2011. While a
notional media plan for FY 2012 covering the period November 2011 through November 2012
had been produced, it had not been agreed to by the Ambassador and, at the time of the
inspection, action dates on several items had already passed. Similarly, although the section did
not have written briefing material for media events, PAS staff reported that they brief the
Ambassador informally and verbally. During the inspection, the Ambassador and DCM met for
over a hour with the entire PAS team—American and LE staff—to discuss the proposed strategy
and engage in a detailed discussion of her priorities. The CFR team agrees with the original
inspection team and believes that the discipline and structure provided by the formal procedures
in the original recommendation will provide clarity and ensure coordination between sections
that have involvement in the Ambassador’s interaction with the media. This recommendation is
reissued.
                                         33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 12: Embassy Copenhagen should bring its social media sites into compliance
with the new Department guidelines on social media. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: A review of the social media sites conducted by IRM Program for Accessible
Computer/Communication Technology (IMPACT) confirmed that, with some minor areas where
the text could be more descriptive, the mission had brought their social media into compliance
with Section 508 of the Rehabilitation Act of 1973. The inspectors shared these minor
shortcomings with the mission. A review by the inspectors of the mission’s social media sites
confirmed that the mission has registered its sites in the Internet Technology Asset Baseline and
that, where possible, all sites have terms of use statements. A problem in dealing with terms of
use statements is that not all social media Web sites enable the mission to post its policies on
their sites. As a result, the mission worked with the staff of the Bureau of International
Information Programs’ content management system to develop a blanket terms of use policy that
is linked to the mission’s Web site and covers these issues for all of the mission’s social media
sites. This recommendation is closed on the basis of acceptable compliance.

Recommendation 13: Embassy Copenhagen should create a field in its Contact 7 database to
record the status of U.S. Government exchange program alumni, and should add all program
alumni to the database. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: The CFR team confirmed that this action has been taken and that it has been
populated with both current and past exchange program alumni going back for a period of 12
years. This recommendation is closed on the basis of acceptable compliance.

Recommendation 14: Embassy Copenhagen should solicit ideas from alumni themselves for
energizing alumni engagement, including organizing informal dinners or other kinds of sessions
at a working level. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: The mission has consulted with alumni and developed a strategy paper for FY
2012. This recommendation is closed on the basis of acceptable compliance.

Recommendation 15: Embassy Copenhagen should use invitational travel orders for its
participants in the International Visitor Leadership Program. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: The mission confirmed that they have changed procedures since the 2010
inspection and provided a list of participants in the International Visitor Leadership Program.
This recommendation is closed on the basis of acceptable compliance.

                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 16: Embassy Copenhagen should notify the Department that language
training is not necessary for consular officer positions 3009500 and 30605000, and should
request that these positions no longer be language designated. (Action: Embassy Copenhagen

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: A review of the global staffing pattern demonstrated that position 30095000 had
not been changed as of the start of the CFR on 31 October 2011. The same global staffing
pattern confirmed that position 30605000 had been changed. The CFR team later obtained a
copy of the “EUR Master LDP [Language Designated Position] Review Exercise,” which
explained that position 300095000 was the second half of a consular/political rotation. The
bureau argued that “it is very valuable for the incumbent in POL to be able to conduct online
research for Congressionally-mandated reports (HHR, TIP, IRF) without having to rely on LE
staff [translation assistance.]” At the same time, however, the EUR review of language
designated positions in Copenhagen decided to downgrade the consular chief position
(30023000) from DA 2/2 to “language preferred” and to list it as a non-language designated
position. As a result of this decision, the mission and the bureau, in consultation with the Bureau
of Consular Affairs, removed language requirements on two positions satisfying the inspection
recommendation to reduce costs by eliminating nonessential language designations. This
constituted acceptable alternative compliance.

Subsequent to this redesignation, the issue was made moot when the Bureau of Consular Affairs
(STATE 85467 – August 24, 2011) determined that immigrant visa procedures for three
Scandinavian countries would be consolidated in Stockholm. Copenhagen lost the 2-year
consular entry-level position along with two LE staff slots. The vice consul (position 30095000)
left post in August and has not been replaced. As a result there are only two positions remaining
in the consular section: the consular chief who is no longer in a language designated position and
the rotational consular/political officer who continues to occupy a language designated position
for the reasons stated above. Closed on the basis of acceptable compliance.

Recommendation 17: Embassy Copenhagen, in coordination with the Bureau of Consular
Affairs and the Bureau of European and Eurasian Affairs, should prepare and implement a plan
to increase support to American citizens in need of consular services in Greenland. (Action:
Embassy Copenhagen, in coordination with CA and EUR)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR findings: In September the consular chief and the senior LE staffer who has responsibility
for American Citizen Services traveled to Greenland. Their trip had three goals: to meet with
Greenlandic officials to discuss resources—police, hospitals, and rescue squads—and develop a
contact list that would enable the mission to respond quickly to support American citizens in
need of assistance; to meet with Americans living in Greenland; and to seek to identify possible
wardens among the small community of Americans resident in Greenland. At the time of the
CFR, however, they had not prepared a report nor had they developed a formal plan. The mission
as a whole needs to develop a coordinated strategy for how best to deal with Greenland. The
consular section’s plans should be part of a coordinated strategy that deals with consular,

                                          35
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

commercial, political, and public affairs concerns in Greenland. This recommendation is
reissued.

Recommendation 18: Embassy Copenhagen should hold a management and general services
office off-site to establish priorities and set goals for the coming year. (Action: Embassy
Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance

CFR Findings: The offices held an off-site to establish priorities and set goals for the year.
However, the mission had a flood, hired new supervisors in the general services and facilities
sections, and reorganized those sections. The mission’s new facilities manager needs to clarify
and prioritize maintenance and repairs projects. This recommendation is revised and reissued.

Recommendation 19: Embassy Copenhagen should develop a comprehensive training plan for
employees in the general services office to provide appropriate internal and external training
opportunities. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance

CFR Findings: The mission provided some employees with needed hard skills training but did
not fully clarify back-up responsibilities. Training plans provided to the CFR team during
compliance were also out-of-date given the turnover in a number of staff. This recommendation
is revised and reissued.

Recommendation 20: Embassy Copenhagen should convene regular, in-person meetings of the
interagency housing board and keep records of housing assignments for incoming officers.
(Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance

CFR Findings: The housing board met monthly from April through October 2011 and kept good
notes of its meetings. This recommendation is closed.

Recommendation 21: Embassy Copenhagen should develop and implement quality control
procedures to improve the make-ready process for residential housing, to include regular weekly
meetings and use of a spreadsheet and calendar to coordinate make-ready tasks. (Action:
Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance

CFR Findings: The mission has instituted new quality control procedures to improve the
housing process to include developing a SharePoint-based application to track all make ready
tasks. Although the new application vastly improves the prior system, some offices responsible
for make-ready tasks did not update the application when tasks were completed. This formal
recommendation is closed. A revised informal recommendation was made.

                                         36
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 22: The Bureau of Overseas Buildings Operations should send a
representative to review the condition of representational furniture and furnishings at Embassy
Copenhagen.

Pre-CFR status: Closed on the basis of acceptable compliance

CFR Findings: OBO sent the mission some representational items to be placed in the CMR, but
did not provide the mission an overall plan for what furnishings it plans to replace and when it
plans to replace them. The CFR team counseled the general services officer to seek clarification
from OBO on what representation pieces should be replaced and whether there is an overall plan
for refurbishing or replacing other representational items. This formal recommendation is closed.

Recommendation 23: Embassy Copenhagen should train the maintenance staff to update the
Work Orders for Windows program to reflect current preventative maintenance requirements and
keep the system updated with the status of work completed. (Action: Embassy Copenhagen)

Pre-CFR status: Closed on the basis of acceptable compliance

CFR Findings: The software was updated and mission staff trained. However, equipment no
longer in use cannot be deleted from the system. The CFR team issued an informal
recommendation that mission staff seek clarification on how to delete items out of the system.
This formal recommendation is closed.

Recommendation 24: Embassy Copenhagen should restrict full access to the Non-Expendable
Property Application system to the non-expendable property clerk.

Pre-CFR status: Closed on the basis of acceptable compliance

CFR Findings: During the CFR, the clerk responsible for keeping the non-expendable property
application up to date left the embassy. Until a new clerk is hired, the mission does not have
enough trained local staff to separate record keeping and physical inventory duties. The CFR
team counseled the general services officer to take on one of those responsibilities until a new
employee is hired and trained. This recommendation is closed.

Recommendation 25: Embassy Copenhagen should issue a property disposal policy
documenting its method of disposing property and the reasons other mandated methods of
disposal cannot be used. (Action: Embassy Copenhagen)

Pre-CFR status: Closed on the basis of acceptable compliance

CFR Findings: The mission issued a new property disposal policy. As there is no market for
used furniture in Denmark, unneeded property would periodically be sent to Embassy Warsaw to
be sold. The mission made about $10,000 in its first sale. Although the mission complied with
the recommendation and held a sale, disposed property has not yet been entered into the non-
expendable property application. The CFR team counseled mission employees to do so. This
recommendation is closed.

                                         37
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 26: Embassy Copenhagen should adjust the work schedules of motor vehicle
chauffeurs to reduce overtime and reduce the risk of motor vehicle accidents caused by fatigue.
(Action: Embassy Copenhagen)

Pre-CFR status: Closed on the basis of acceptable compliance

CFR Findings: The mission issued a management notice encouraging staff to take taxis and use
limo services whenever possible as those modes of transportation are reliable and safe.
Chauffeur overtime has decreased. The mission is also working with the Bureau of Human
Resources Office of Overseas Employment to incorporate shift work into the local compensation
plan. This recommendation is closed.

Recommendation 27: Embassy Copenhagen should create and implement a standard operating
procedure for gift management to maintain accurate records on the acceptance of gifts by
embassy employees; to determine whether a gift is from a prohibited source; to ascertain the fair
market value of the gift; and to record the proper disposition of the gift. (Action: Embassy
Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance

CFR Findings: The mission issued a management notice outlining rules associated with the
acceptance of gifts. The management officer also made a PowerPoint presentation to mission
employees on accepting gifts. The recommendation is closed.

Security Recommendation 1: Embassy Copenhagen should fill the vacant office management
specialist position in the regional security office with a full-time office management specialist as
soon as possible (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The inspectors met and interviewed the incumbent. This recommendation is
closed on the basis of acceptable compliance.

Security Recommendation 2: Embassy Copenhagen should cease the practice of having the
local guards lock and unlock the city cemetery gates. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed on the basis of acceptable nonimplementation.

CFR Findings: The mission reported that this issue has been discussed in detail by the mission’s
emergency action committee and they concluded that unrestricted access to the cemetery grounds
(b) (5)                                             The CFR team examined the emergency
egress issues and confirmed the OIG compliance unit opinion (11 MDA 3533- 7/11/11) that this
recommendation is closed on the basis of acceptable nonimplementation.

Security Recommendation 3: Embassy Copenhagen should install barriers on the public street
in front of the embassy, upon city approval, in order to restrict parking. (Action: Embassy
Copenhagen)
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Pre-CFR Status: Resolved/open.

CFR Findings: (b) (5)
                                                                                            the
next step is for the mission to submit formal plans from an architecture and engineering firm.
Once the design plans are complete, then the city authorities will review and decide. With their
approval, the next step would be to obtain funding. Since the earlier mission response to this
recommendation (11MDA 2489 – 5/18/2011) a new issue has developed—the bicycle lane.
While the city is willing to consider blocking the parking lane, the question now is what to do
with the bicycle lane, which is located between the sidewalk and the street parking lane. As
noted in the last compliance cable prior to the report the mission has agreed to the
recommendation but implementation is still pending. This recommendation is still resolved/open
and for that reason is being reissued.

Security Recommendation 4: Embassy Copenhagen should officially request that the Bureau of
Overseas Buildings Operations reconfigure the new entrance to the embassy’s consular affairs
section so that visitors are not able to exit through the chancery lobby. (Action: Embassy
Copenhagen)

Pre-CFR Status: Closed for acceptable compliance.

CFR Findings: A walk through by the inspector confirmed that visitors to the consular section
both enter and exit the consular section through a separate entry and no longer exit through the
chancery lobby. The door that was formerly used, remains under the control of the Marine guard
at Post One and serves as an emergency exit. This recommendation is closed.

Security Recommendation 5: Embassy Copenhagen should perform a physical security
survey to identify deficiencies requiring correction. (Action: Embassy Copenhagen)

Pre-CFR Status: Closed for acceptable compliance.

CFR Findings: Prior to arrival at post, the CFR team received confirmation from the
DS/IP/EUR desk officer that all of the required physical surveys had been completed and are
currently up-to-date. This recommendation is closed.

Security Recommendation 6: Embassy Copenhagen should establish and implement a
procedure for enforcing the security standard that only embassy employees may escort foreign
nationals in non-controlled access areas. (Action: Embassy Copenhagen)

Pre-CFR Status: Open

CFR Findings: The mission substantially complied with (b)(1)                by fully vetting all
restaurant staff so they can escort guests through the mission. Restaurant employees now have
the same security level as LE staff. The recommendation is closed.


                                         39
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Security Recommendation 7: Embassy Copenhagen should restrict use of the executive dining
room to formal embassy representational events and discontinue access to it by the Diplomat
restaurant for its functions (Action: Embassy Copenhagen)

Pre-CFR Status: Open.

CFR Findings: While the mission has not restricted access to the executive dining room as
recommended, it revised its policy related to hosting the events to provide more oversight of
dining room use. The CFR team recommended the mission document and disseminate the policy
change in either the memorandum of understanding or licensing agreement. This
recommendation has been revised and reissued.

Security Recommendation 8: Embassy Copenhagen, (b)(1)
      should establish and implement an escort policy that it deems appropriate to ensure close
monitoring of the Diplomat guests’ actions. (Action: Embassy Copenhagen)

Pre-CFR Status: Open.

CFR Findings: Embassy Copenhagen’s (b)(1)                                          approved
the mission’s revised escort policy. This recommendation is closed.

Security Recommendation 9: Embassy Copenhagen should relocate and adequately equip an
alternate command center to assure continuity of operations during an emergency. (Action:
Embassy Copenhagen).

Pre-CFR Status: Resolved/open.

CFR Findings: The inspectors visited the alternate command center that has been established in
the CMR. They confirmed that additional ventilation was provided and that appropriate
communications equipment had been set up. (b) (5)




Security Recommendation 10: (b) (5)



Pre-CFR Status: Resolved/open.

CFR Findings: The CFR team confirmed that the facilities manager has added a non-slip step
that leads down to the escape platform and provided adequate hand holds for persons exiting the

                                         40
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

consular section through the emergency window. The security inspector exited through this
escape route without problems. This recommendation is closed.

Security Recommendation 11: Embassy Copenhagen should discontinue the use of Marine
security guards as telephone operators. (Action: Embassy Copenhagen).

Pre-CFR Status: Closed for acceptable compliance.

CFR Findings: The CFR team confirmed that the phones are no longer automatically being
rolled over to Post One and that after-hour messages are going to an answering machine that also
provides emergency information. This recommendation is closed.

Security Recommendation 12: (b) (5)


Pre-CFR Status: Resolved/open.

CFR Findings: (b) (5)




Security Recommendation 13: (b) (5)



Pre-CFR Status: Closed

CFR Findings: (b) (5)



Security Recommendation 14: The security annex to the 2011 inspection report included one
other recommendation.

Pre-CFR Status: Resolved/open.

CFR Findings: The CFR team reviewed the material and also received confirmation from the
appropriate action office in the Bureau of Diplomatic Security that action had been taken. This
recommendation is closed.




                                         41
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2010 Inspection Informal
Recommendations
Informal Recommendation 1: Embassy Copenhagen should develop and distribute guidelines
for when to use informal email, record email, and cables for communication and reporting.

CFR Findings: Embassy Copenhagen issued a management notice with guidelines for the use of
informal email, record email, and cables for communication and reporting. Some embassy
officers report technical difficulties with the receipt of record emails leading to them sending the
same information as informal emails. Because of the perceived unreliability of record emails and
some continuing uncertainty about what information qualifies for record email use, record emails
are not used commonly. The working assumption is that information needing to be preserved as a
formal record will be included in cables. The embassy met the objectives of the informal
recommendation, and it is closed

Informal Recommendation 2: Embassy Copenhagen should develop a formal media policy and
circulate it periodically to embassy staff.

CFR Status: Although the mission had prepared a formal media policy, the PAS had not
distributed it widely nor posted it to the mission SharePoint site. This issue was corrected during
the CFR. This informal recommendation is closed.

Informal Recommendation 3: Embassy Copenhagen should have its consular officers
participate jointly with Fulbright Commission’s Education USA advisers in sessions promoting
study in the United States.

CFR Status: The public affairs officer and consular chief have discussed this issue but no action
has been taken. PAS staff, however, noted that the educational advisers at the Fulbright
commission are experienced, have studied in the United States, are well versed in visa issues,
and that there are relatively few problems with student visas in Denmark. In addition, the
consular section has recently been reduced from three to two officers. While both sections are
quite willing to work together with the commission on student advising, this is not a pressing
need. The idea of making American officers available to outreach sessions to talk about their
own individual educational experience is a good one, but it does not need to be met only by
consular officers. The two sections agreed that if the mission and the Fulbright commission feel
that having an American discuss his or her experience in an American university is worthwhile,
then the PAS should work to make this opportunity available throughout the mission. This
recommendation is closed for acceptable alternative compliance.

Informal Recommendation 4: Embassy Copenhagen should install view-only access to the
Contact 7 database on the desktops of public affairs section staff in addition to the staff member
who has editing rights on the system.

CFR Status: The CFR team confirmed that the view-only access to Contact 7 database was
installed and available on all desktops. At the same time, discussions with several staff members
suggest that the section is not always using this resource in event planning but is still relying on
                                          42
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the memories and experience of LE staff. While this approach works, the concern is that the
information is lost with the departure of experienced LE staff. The section needs a way to ensure
that data survives individuals. Developing the habit of using this contact database will improve
programming and ensure transfer of information to new employees. This recommendation was
modified and reissued.

Informal Recommendation 5: Embassy Copenhagen should use all the required grant forms as
specified by the Office of the Procurement Executive and include evidence of program
completion in all grants files.

CFR Status: The inspectors reviewed a random selection of grant files issues since the 2011
inspection and a random selection of grants from the prior calendar year. A review of current
grants confirmed that appropriate forms are being used and that non-competition justifications
are used where needed. A random review of grants issued prior to the inspection showed that
grants were being appropriately closed. This informal recommendation is closed.

Informal Recommendation 6: Embassy Copenhagen should direct a staff member from the
public affairs section to obtain a government purchase card.

CFR Status: The PAS administrative assistant said that the matter had been discussed with the
management section and that it was decided by both parties that obtaining a government
purchase card was not necessary. Changes in place or in process in the general services and
facilities sections subsequent to the inspection have resulted in improved service. PAS staff
confirmed that the current situation has not created major problems and that currently, the
management section’s support for public affairs program needs is satisfactory. This
recommendation is closed for acceptable non-compliance.

Informal Recommendation 7: Embassy Copenhagen should have the public affairs section
develop a representation plan.

CFR Status: The CFR team obtained copies of representation lists for previous years and
confirmed the existence of a very optimistic representation plan for FY 2012. A review of the
guest list showed that there was an effort made to ensure that alumni of various public diplomacy
programs were regularly included in representational events. LE staff confirmed that they had
received a small representational allotment in FY 2011, although the very late date in the fiscal
year at which these funds were made available resulted in less that optimum use. This informal
recommendation is closed.

Informal Recommendation 8: Embassy Copenhagen should develop a training spreadsheet in
the public affairs section.

CFR Status: The CFR team confirmed the training spreadsheet and obtained copies of training
spreadsheets. These documents confirm that LE staff are receiving regular training and that plans
are being made for needed in-service training. This informal recommendation is closed.

Informal Recommendation 9: Embassy Copenhagen should review and implement measures
that can be taken now to improve (b) (5) in the consular section.
                                         43
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



CFR Status: The consolidation of immigrant visa processing for three Scandinavian countries
in Stockholm and the elimination of this unit from Embassy Copenhagen has provided the
mission with the opportunity to consolidate several of the printing work stations (b) (5)




Informal Recommendation 10: Embassy Copenhagen should arrange at least annual
presentations on the visa referral policy and procedures for all staff members.

CFR Status: At the time of the CFR no action had been taken on this informal
recommendation. The consular chief said that since staff in place at the time of the
inspection had read and agreed to the visa referral policy and since there are very few visa
referrals in the mission, he planned to make presentations in fall 2011 when new staff
arrived. However, he is awaiting the formal posting of changes that are being made to 9
FAM Appendix K - Visa Referral Systems to put these briefings into effect. When these
changes are issued (the consular chief said he had been in touch with the Bureau of
Consular Affairs and been advised that they will be posted very soon), he will make two
presentations in general meetings, will reissue the written post policy and forward it to all
staff members, and continue to insist that newly arrived staff will sign a statement
acknowledging that they have read the policy before accepting visa referrals. This is a
reasonable response; however, the mission should not delay and needs to make a
presentation on whatever regulations are in effect at the time, before the end of the year.
This informal recommendation is reissued.

Informal Recommendation 11: Embassy Copenhagen should consult with neighboring posts
and propose and support initiatives to hold periodic meetings or video conferences focused on
improving anti-fraud measures.

CFR Status: The three Scandinavian missions have discussed this issue but none of them has
stepped forward to take on the responsibility for coordinating this action. Subsequent to the
inspection, the consolidation of immigrant visa services will mean that the immigrant visa chief
in Stockholm will be making regular visits to Embassy Copenhagen. These visits will provide an
opportunity to discuss a range of issues, including anti-fraud measures, on a regular basis. This
informal recommendation is closed for alternative compliance.

Informal Recommendation 12: Embassy Copenhagen should identify and appoint wardens in
Denmark.

CFR Status: There are over 15,000 Americans resident in Denmark. The majority of them are
married to Danes and have long and deep ties to the host community. The consular section chief
has not been successful in developing a warden system. Given the section’s small staff and the
large expenditure of staff time that would be needed, the section has not taken any steps to
implement this informal recommendation. The problems of managing this large expatriate
community in a relatively low-threat Western European country are shared by other posts in the
                                          44
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

region. In order to ensure that the mission address the concerns of 12 FAH-1 H-324 and 7 FAM
070, the inspectors recommended that the consular section consult with other missions in the
region to determine how they deal with similar situations and that they seek the Bureau of
Consular Affairs Office of Overseas Citizen Service’s concurrence on whether they have
adequately addressed the requirements of the FAM and FAH. This recommendation is reissued
with modifications.

Informal Recommendation 13: Embassy Copenhagen should provide newly assigned
personnel with a clear explanation of some of the unique features and innovations at the embassy
and what they can expect from the embassy’s management section.

CFR Status: The mission updated its housing handbook to provide a clear explanation of the
services that it provides. The CFR team also issued a recommendation that the service provider
formally discuss results of ICASS customer surveys with the ICASS council, country team, and
possibly the mission. This informal recommendation is closed.

Informal Recommendation 14: Embassy Copenhagen should review furniture issuance policies
when conducting the annual update of the housing handbook.

CFR Status: The mission does not have staff or space in the warehouse to move inventory
items back and forth. It recently instituted a make-ready program to improve the housing
process.

Informal Recommendation 15: Embassy Copenhagen should publish a management notice
describing the expendable supply process for the benefit of incoming customers.

CFR Status: The mission has not issued a management notice, but mission employees have
been informed that supply cabinets are available. The CFR team left a recommendation that the
management officer and ICASS council representatives formally discuss results to dispel
misperceptions about service levels and to correct mistakes.

Informal Recommendation 16: Embassy Copenhagen should review the Internal Cooperative
Administrative Support Services universal service standards for expendable supplies and
establish a plan for meeting these standards.

CFR Status: The mission has reviewed the standards and found that they are adequate.

Informal Recommendation 17: Embassy Copenhagen should develop a written planning and
implementation schedule which prioritizes maintenance and repair projects, identifies timelines,
and schedules advance work as necessary.

CFR Status: The mission has not complied with this recommendation. The CFR team issued a
formal recommendation in the body of the report.

Security Informal Recommendation 1: Embassy Copenhagen should change the memorandum
of understanding with the Diplomat, removing misleading wording concerning clearances.

                                         45
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

     CFR Status: The CFR team obtained a copy of the memorandum of understanding signed
     between Embassy Copenhagen and The Diplomat restaurant and confirmed that the required
     changes had been made. This informal recommendation is closed.
(b) (5)




     Security Informal Recommendation 4: Embassy Copenhagen should change the duck-and-
     cover section of the Security Procedures Handbook to direct employees to seek shelter under a
     desk during a duck-and-cover situation.

     CFR Status: The CFR team confirmed that the language in the appropriate section of the
     Security Procedures Handbook (section 7.7) has been modified in response to this
     recommendation. The handbook is available on the mission’s SharePoint site. This
     recommendation is closed.

     Security Informal Recommendation 5: Embassy Copenhagen should keep a record of all
     maintenance and repairs in the controlled access area for review by the Engineering Services
     Office in Stockholm, Sweden.

     CFR Status: The CFR team confirmed that the security office management specialist keeps a
     log of maintenance and repairs . This recommendation is closed.

     Security Informal Recommendation 6: Embassy Copenhagen should supply the safe haven
     with the necessary supplies.

     CFR Status: The CFR team inspected the safe haven and confirmed that it has the needed
     supplies. The team also noted that the mission is monitoring expiration dates on food products
     and has ordered replacements as appropriate. This recommendation is closed.




                                              46
                                  SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
